            HEARING BEFORE THE
       SUBCOMMITTEE ON OVERSIGHT
      COMMITTEE ON WAYS AND MEANS
      U.S. HOUSE OF REPRESENTATIVES




               February 26, 2009

                Washington, DC

        The Honorable J. Russell George
Treasury Inspector General for Tax Administration
                                        STATEMENT OF

                  THE HONORABLE J. RUSSELL GEORGE
         TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION
                                before the
                     SUBCOMMITTEE ON OVERSIGHT
                    COMMITTEE ON WAYS AND MEANS
                    U.S. HOUSE OF REPRESENTATIVES


       “IRS Assistance for Taxpayers Experiencing Economic Difficulties”

                                        February 26, 2009


        Chairman Lewis, Ranking Member Boustany, and Members of the Subcommittee,
I thank you for the opportunity to submit testimony for this hearing. My comments will
focus on the Treasury Inspector General for Tax Administration’s (TIGTA) audit actions
pertaining to the Internal Revenue Service’s (IRS) efforts to assist taxpayers experiencing
economic difficulties.

        The American economy is in the midst of an economic crisis. The economy lost
3.6 million jobs in the last 13 months, the biggest job loss since the end of the Second
World War. Many experts believe unemployment could reach double digits if no action
is taken. In light of this historic economic weakness, President Obama signed the
American Recovery and Reinvestment Act of 2009 (ARRA 2009), a nationwide effort to
create jobs and transform our economy to compete in the 21st century.1 The legislation
represents the most ambitious effort to stimulate the economy in our nation’s history.

       According to the Administration, nearly 40 percent of the benefits of the
ARRA 2009 are derived from direct relief to working and middle class families. The
ARRA 2009 includes a Making Work Pay tax credit for 95 percent of workers and their
families. In addition, the ARRA provides direct relief for families by expanding
unemployment insurance and offering payments to Social Security beneficiaries and
veterans.

        The ARRA 2009 also enacted the most significant expansion in tax cuts for low-
and moderate-income households ever. Under prior law, a family of four earning the
minimum wage currently lived below the poverty line. Under the ARRA 2009, that
family should be lifted out of poverty by a combination of an $800 Making Work Pay tax
credit and $1,200 from an expanded child tax credit. All told, the Administration
estimates that more than 2 million people would be lifted out of poverty.




1
    Pub. L. No. 111-5, 123 Stat. 115.


                                               2
       According to Recovery.gov, tax relief accounts for approximately $288 billion of
ARRA 2009 provisions. Tax relief accounts for about one-third of the recovery benefits
expected from the ARRA 2009. Therefore, the IRS plays a key role in helping to
accomplish the economic recovery.
Filing Season2
        Each year, legislated tax law changes create challenges for both the IRS and
individual taxpayers. The ARRA 2009 is no exception. However, experience has shown
that the IRS can effectively meet those challenges. Last year, the IRS implemented tax
law changes correctly with no significant delays in the processing of tax returns during
the 2008 Filing Season.3 Overall, through May 30, 2008, the IRS had received 144.2
million individual tax returns. Of those, approximately 86.7 million were electronically
filed and approximately 57.5 million were filed on paper.
       The 2008 Filing Season presented additional challenges for the IRS due to the late
and unexpected enactment of two significant tax laws.
       •   The Tax Increase Prevention Act of 2007 limited the number of taxpayers
           who would be subject to the Alternative Minimum Tax for Tax Year 2007.4
       •   The Economic Stimulus Act of 2008 provided an economic stimulus payment
           to more than 130 million people.5
        In spite of the additional challenges, the IRS generally had a successful 2008
Filing Season. Most key tax law and administrative changes were correctly implemented,
and the IRS completed processing returns on schedule and issued refunds within the
required 45 calendar days of the April 15, 2008, due date.6
        Individual return receipts for electronic and paper returns exceeded the IRS
estimates and the receipts from the same time in 2007 by more than 11 percent. The
largest increase was in the number of paper U.S. Individual Income Tax Returns (Form
1040A), which increased by almost 84 percent from the same time in 2007. This increase
was largely due taxpayers who do not normally file tax returns, filing returns in
Tax Year 2007 in order to receive the economic stimulus payment.
        However, while the IRS was able to meet the challenges of late and unexpected
enacted legislation and accurately process most returns in a timely manner, TIGTA
identified the following opportunities to improve the processing of some tax deductions:
       •   Taxpayers improperly claimed and were allowed the Qualified Mortgage
           Insurance Premiums deduction.



2
  The filing season is the period from January through mid-April of each year when most
individual tax returns are filed.
3
  The 2008 Filing Season Was Generally Successful Despite the Challenges of Late and
Unexpected Tax Legislation (Reference Number 2008-40-183, dated September 30, 2008).
4
  Pub. L. No. 110-166, 121 Stat. 2461.
5
  Pub. L. No. 110-185, 122 Stat. 613.
6
  Internal Revenue Code Section 6611 (e) (2002).


                                             3
        •   Taxpayers age 70½ or older improperly claimed and were allowed the
            Individual Retirement Account deduction.
        •   Taxpayers did not claim the sales tax deduction.
        •   Taxpayers who improperly claimed a “dual benefit” for both the tuition and
            fees deduction and the Education Credit are not receiving the dual benefit.
            However, improvements still need to be made in processing these returns.

        TIGTA recommended that the IRS: identify improperly claimed deductions;
inform taxpayers regarding possible eligibility for a sales tax deduction; and implement
procedures to correctly address "dual benefit" education credit and deduction cases. In
response to the report, the IRS plans to update computer programs to identify taxpayer
returns where improper deductions may be claimed, ensure IRS employees are correctly
addressing education "dual benefit" cases, and plans to add a cautionary statement on
sales tax deduction eligibility to a tax form.

       Given the opportunities for improvement that TIGTA identified during the
2008 Filing Season, TIGTA is committed to continued oversight of each Filing Season.
As part of that oversight, TIGTA will review the implementation of tax relief provisions
included in the ARRA 2009 during the 2009 and 2010 Filing Seasons.

Toll-free Telephone Assistance

        Each year, millions of taxpayers contact the IRS by calling the various toll-free
telephone assistance lines to seek help in understanding tax laws and meeting their tax
obligations. Given the tax provisions of the ARRA 2009, it is likely that some taxpayers
will call the IRS for assistance with those. The tax provisions of the ARRA 2009 could
significantly challenge the IRS to provide toll-free telephone assistance during the 2009
and 2010 Filing Seasons.

        Over the years, the IRS has encountered issues that affect access to its toll-free
telephone services, such as natural disasters and the late passage of legislation. For
example, for the 2006 Filing Season, the IRS planned for more services on the toll-free
telephone lines and dedicated disaster relief applications to help reduce any potential
impact of callers inquiring about filing extensions related to Hurricanes Katrina and
Rita.7 For the 2007 Filing Season, the IRS planned for additional calls to assistors and
the automated lines in anticipation of questions about the Telephone Excise Tax Refund.


7
  The toll-free telephone assistance lines are subdivided into categories called “applications,”
each of which is staffed with a group of assistors who have received specialized training to assist
taxpayers with specific tax issues. Assistors answer taxpayer questions involving tax law and tax
account conditions such as refunds, balance-due billing activity, and changes to the amount of
tax owed. For example, if an individual taxpayer calls to find out where to mail a tax return, the
call would be routed to an assistor who has been trained to handle IRS procedural issues for
individual taxpayers. If a business taxpayer calls to find out the taxes due on a business account,
the call would be routed to an assistor who handles balance-due questions for business
taxpayers.


                                                4
        However, the Economic Stimulus Act of 2008 was passed in February 2008, after
the IRS had completed planning for the 2008 Filing Season. The Act was passed to
provide economic stimulus through recovery rebates to individuals, incentives for
business investment, and an increase in conforming and Federal Housing Authority loan
limits.8 About 130 million taxpayers were expected to receive economic stimulus
payments beginning in late April and early May. During the 2008 Filing Season, the IRS
averaged 69,000 rebate calls per day, with a peak volume of 208,000 in one day.9

        Taxpayers rely heavily on the IRS’s toll-free telephone assistance for help with
their tax obligations. During the 2008 Filing Season, taxpayers called the IRS toll-free
telephone assistance lines approximately 59.7 million times.10 Of these calls, about
22.2 million were made to the toll-free telephone number that taxpayers call to ask
account or tax law questions (1-800-829-1040). In addition, about 6.1 million calls were
made to the IRS automated TeleTax system that provides recorded tax law and tax refund
information. Figure 1 shows the number of calls made to the toll-free telephone
assistance lines, including about 16.1 million calls answered by customer service
representatives (assistors).11

          Figure 1: Calls Handled by the IRS in the 2008 Filing Season
                                                                         Received
                      After                                          Automated Service
                Hours/Transfer Out                                      16.5 Million
                   13.3 Million




                                      22.3%
                                                      27.5%




            Hung up or Was
          Disconnected Before        23.1%
           Receiving Service
                                                     27.0%            Reached an Assistor
              13.8 million
                                                                          16.1 Million




                Source: IRS Enterprise Telephone Data Warehouse.12


8
  A conforming loan is a mortgage loan that conforms to Government Sponsored Enterprise
(GSE) guidelines. The Office of Federal Housing Enterprise Oversight (OFHEO) sets the criteria
on what constitutes a conforming loan limit. Fannie Mae and Freddie Mac are GSEs.
9
  Increased Call Volume Associated With Economic Stimulus Payments Reduced Toll-Free
Access for the 2008 Filing Season (Reference Number 2008-40-168, dated August 29, 2008).
10
   These calls were made to the suite of 19 telephone lines the IRS refers to as “Customer
Account Services Toll-Free” and included calls made to the TeleTax system.
11
   Due to rounding, numbers might not always equal the sum of the totals or 100 percent.
12
   The Enterprise Telephone Data Warehouse is the official source for all data related to toll-free
telephone assistance measures and indicators.


                                                 5
        Call volume usually decreases after the filing season. However, due to calls about
the economic stimulus payments and taxpayers repeatedly trying to call, not only did
demand not decrease, it increased significantly after the 2008 Filing Season.13 Because
of the additional call volume associated with the economic stimulus payments, the IRS
continued to struggle with extremely high call volumes after the 2008 Filing Season and
did not achieve some of its fiscal year performance goals. The ability of taxpayers to
access the toll-free telephone system was much lower than that in prior years. For
example, the IRS had planned to achieve an 82 percent Level of Service and a 270-
second Average Speed of Answer. Instead, through August 30, 2008, it achieved a
54 percent Level of Service and a 589-second Average Speed of Answer.14

        Taxpayers made about 189 million calls to the IRS toll-free telephone assistance
lines during Fiscal Year 2008.15 The IRS received approximately 125 million call
attempts after the 2008 Filing Season, with approximately 45 million (36 percent) call
attempts made to the Rebate Hotline (the telephone line dedicated to calls related to the
economic stimulus payments/rebates). IRS assistors answered about 17 million calls
after the 2008 Filing Season; approximately 4.2 million (24.5 percent) were for those
taxpayers calling the Rebate Hotline.

Volunteer Taxpayer Assistance Program16

        The Volunteer Taxpayer Assistance Program plays an increasingly important role
in achieving the IRS’s goal of improving taxpayer service and facilitating participation in
the tax system. It provides no-cost Federal tax return preparation and electronic filing
directed toward underserved segments of individual taxpayers, including low-income to
moderate-income, elderly, disabled, and limited-English-proficient taxpayers. TIGTA
has conducted annual assessments of the VITA program since 2004. The accuracy rate
for returns prepared at volunteer sites has increased from 0 percent in 2004 to
69 percent in 2008. TIGTA’s review of the 2008 Filing Season also found improvements
to the oversight of the volunteer program.17

       Although accuracy rates for tax returns prepared by volunteers have increased
from those in prior years, the quality assurance process is still not consistently followed.
Incorrectly prepared tax returns can increase the risk of taxpayers receiving erroneous tax

13
   Call Volume Associated With the Economic Stimulus Payments Made It Difficult to Reach the
Internal Revenue Service During Fiscal Year 2008 (Reference Number 2009-40-030, dated
January 26, 2009).
14
   Level of Service is the IRS’ primary measure of providing taxpayers with access to an assistor.
Average Speed of Answer is the average number of seconds taxpayers waited in the queue (on
hold) before receiving services.
15
   These calls were made to the suite of 19 telephone lines the IRS refers to as “Customer
Account Services Toll-Free” and included calls made to the TeleTax system.
16
   Includes the Volunteer Income Tax Assistance (VITA) and Tax Counseling for the Elderly
(TCE) Programs.
17
   Accuracy of Volunteer Tax Returns Continues to Improve, but Better Controls Are Needed to
Ensure Consistent Application of Procedures and Processes (Reference Number 2008-40-177,
dated September 18, 2008).


                                                6
refunds by not receiving credits to which they are entitled or receiving additional credits
for which they do not qualify.

        Posing as taxpayers, TIGTA auditors had tax returns prepared by volunteers at
VITA and TCE sites sponsored by the American Association of Retired Persons. Of the
36 tax returns prepared during the course of the audit, 11 returns (31 percent) were
prepared incorrectly. For the 11 tax returns incorrectly prepared, 1 or more requirements
were not followed. For example:

        •   For 1 return (9 percent), the volunteer did not use an intake sheet when
            preparing the tax return.
        •   For 3 returns (27 percent), the volunteers did not correctly prepare the intake
            sheet.
        •   For 3 returns (27 percent), the sites had no quality review process.
        •   For 3 returns (27 percent) that were quality reviewed, the volunteers did not
            use a quality review checksheet.

         Some volunteer sites also offer Refund Anticipation Loans (RAL).18 However,
little oversight for these loans is offered through the Volunteer Program. The IRS could
not provide the number of Volunteer Program sites or a list of sites that offer RALs. In
addition, the volunteers cannot input RAL indicators on taxpayer accounts for those who
applied or obtained the loans, which is a requirement for commercial tax preparation
companies.

        Improvements are needed to the Volunteer Program. Return review procedures
used to monitor effectiveness were not consistently followed from site to site. Return
reviews are unannounced IRS visits to volunteer sites to evaluate tax law and tax return
accuracy. In addition, TIGTA’s review of 91 Return Review cases showed that 43
(47 percent) had missing or illegible documents. Therefore, TIGTA could not validate
the accuracy of those tax returns. TIGTA recommended that the IRS improve
documentation of its reviews, require volunteer applicants to disclose any criminal
convictions, and require sites to document whether they offer Refund Anticipation Loans.

        In general, the IRS agreed with TIGTA’s recommendations. However, the IRS
disagreed that it should ensure that volunteers are able to input a RAL indicator, citing a
variety of procedural and other issues. TIGTA agreed that the IRS needs to consider the
additional costs and investigate further before making a final determination. However,
the IRS currently cannot determine which sites offer RALs or the number of—and/or
which—taxpayers visit volunteer sites to obtain RALs. This is necessary to determine
the effect of RALs on the Volunteer Program and to ensure that all procedures and
regulations are followed. According to the IRS, oversight of volunteers offering RALs
will be accomplished within the parameters of an existing program. TIGTA plans to
follow up on this action during its 2009 Filing Season audit of the Volunteer Program.

18
  RALs are short-term loans provided to taxpayers in anticipation of their current year Federal
income tax refunds. The IRS stated that the RALs offered by Volunteer Program partners are
lower in fees and interest than RALs offered through commercial tax preparation services.


                                                7
Refund Anticipation Loans

        In times of economic hardship, more taxpayers may seek to receive their tax
refunds more quickly. Already, millions of taxpayers borrow against all or part of their
expected tax refunds to receive their money. This is accomplished through short-term
loans that cost taxpayers fees and interest payments. However, many of these taxpayers
are eligible for free tax preparation services offered by the IRS and its partners.

        During the 2008 Filing Season, almost 10 million taxpayers borrowed against all
or part of their expected tax refunds using RALs. A RAL is a short-term loan based on a
taxpayer’s expected income tax refund and is a contract between the taxpayer and a
lender. The IRS is not involved in this contract, cannot grant or deny the loan, and
cannot answer any questions about it. The loans last from 5 to 14 days.

        TIGTA surveyed by telephone 350 taxpayers whose IRS Tax Year 2007 tax
accounts contained RAL indicators. Respondents stated that they were aware they
received loans and they did obtain their money more quickly. For 250 respondents who
indicated that they had received RALs, 213 (85 percent) stated that they obtained their
loans so they could more quickly receive their tax refunds.19 The other 100 indicated
they did not obtain a RAL despite what the IRS’ records indicated.

        Taxpayers who chose to wait and receive their tax refunds from the IRS waited
from 5 days to 8 weeks, depending on how they filed and how they chose to receive their
tax refunds (by check or direct deposit). For the 250 respondents who responded that
they received RALs:

       •   131 (52 percent) received their loans the same day of or within
           2 business days of their tax return preparation.
       •   213 (85 percent) stated that preparers made it clear they were receiving loans.
           In addition, 220 (88 percent) stated that the preparers explained the fees.
           However, only 85 respondents (34 percent) stated that they were provided
           with the interest rates for the loans.
       •   167 (67 percent) preparers explained how long it would take for the taxpayers
           to receive their tax refunds if they chose not to obtain the loans.
       •   213 (85 percent) obtained loans because they wanted faster access to their tax
           refunds and 185 (74 percent) used the money to pay bills. Another 14
           (6 percent) used the money to buy or repair a car or for home repairs and
           expenses. Eight percent stated they put the money in savings.

         Proponents of RAL reform have expressed concerns that preparers might be
taking advantage of taxpayers by aggressively marketing the loans. More than one-half
of the respondents—159 (64 percent)—had checking or savings accounts with financial
institutions. In fact, 81 preparers suggested that these taxpayers accept their loan

19
  The survey included 350 participants. However, only 250 respondents stated that they
obtained RALs. Therefore, only those 250 survey participants were asked the 15 questions
specific to the Loans.


                                              8
proceeds via a direct deposit to their accounts—11 stated that they followed the
preparers’ suggestions. Assuming that these taxpayers could afford the tax return
preparation and filing fees, they alternatively could have had the IRS directly deposit
their refunds to their bank accounts in as few as five days.

        Most respondents actually received their loan proceeds within five days. Fifty-
two percent of respondents (131 of 250) stated that they received their loan proceeds
within two days. Forty-five percent (113 of 250) of the respondents who indicated that
they had received RALs stated that they would have been willing to wait less than a week
to receive their tax refunds from the IRS, and 85 percent (212 of 250) stated they would
have been willing to wait up to nine days to receive their tax refunds.

        The IRS is actively working to reduce the amount of time required to process tax
returns. By reducing the number of days required to process tax returns, the IRS will be
able to issue tax refunds sooner. This will shorten the number of days between the time
taxpayers receive their RALs and the time it takes the IRS to issue the tax refunds.

        Additionally, TIGTA’s analysis of taxpayer account data for the respondents
showed that 158 (63 percent) received the Earned Income Tax Credit. The Earned
Income Tax Credit has been cited by many experts as the single Federal Government
program that does the most to help get working families out of poverty. However, tax
return preparation and fees to obtain RALs ranged from 10 to 39 percent of the
taxpayers’ Earned Income Tax Credit, with the percentage generally higher for
low-income taxpayers.

        The majority of survey respondents would have qualified for the IRS’s free tax
preparation assistance. However, 81 percent (284 of 350) stated that they were unaware
of these free services. Taxpayers may visit Taxpayer Assistance Centers,20 VITA sites
and TCE sites, or use the Free-File Program to file their tax returns for free. During the
2008 Filing Season, more than 9 million taxpayers took advantage of these services.

       TIGTA recommended that the IRS use taxpayer account data for taxpayers who
apply for RALs and Refund Anticipation Checks to better focus the IRS’s marketing and
education efforts so that more taxpayers can make use of the available free services. The
IRS agreed with the recommendation.

Self-Assistance

        The IRS’s current methods for assisting customers with e-file reject conditions
create burdens for the customers and unnecessary expenses for the IRS, including costs
for providing toll-free telephone assistance and maintaining redundant systems. The IRS
noted that each system was developed for a different purpose and for a different type of



20
  Taxpayer Assistance Centers are walk-in sites where taxpayers can receive face-to-face
assistance to obtain answers to both account and tax law questions, as well as receive
assistance in preparing their tax returns.


                                              9
user. In Calendar Year 2007, the IRS spent more than $3 million21 providing customers
with telephone assistance to address e-file reject conditions. Requiring customers to call
the IRS to obtain assistance in correcting reject conditions increased the burden for the
154,986 customers who had to call the IRS for assistance with rejected e-filed tax returns
in Calendar Year 2007.

         For Tax Year 2006, the IRS received nearly 80 million e-filed tax returns. E-filed
returns benefit both the IRS and taxpayers because their processing costs and error rates
are lower than those for paper returns. To help achieve a high level of accuracy, the
IRS’s e-file system has automated, upfront tax return validity checks. The IRS rejects
e-filed tax returns that do not pass its validity checks and sends the electronic files back to
the customers, who are responsible for correcting the reject conditions and resubmitting
the tax returns.

        The information provided to a customer in the e-file acknowledgement does not
by itself enable the customer to address the reject condition(s). Customers are required to
review publications and/or contact the IRS to obtain a detailed description of what caused
the reject conditions and, more importantly, how to correct the conditions.

        A self-assistance option could be created.22 The IRS provided TIGTA with
documentation outlining a system that would give customers self-assistance options. The
original request date for implementation was August 2005. However, resource
constraints have prevented the system’s implementation. The IRS currently has a system
that could be modified to include information on how to resolve the reject conditions, and
this system could be placed on IRS.gov (the public IRS Web site) as a self-assistance
option. Updates to this system could provide the IRS with a short-term solution for
providing self-assistance.

        The IRS has already taken action in response to our concerns by adding to
IRS.gov a new option that lists common reject codes along with suggested solutions.
This is a first step toward providing a complete electronic self-assistance option for
resolving rejected e-filed tax returns. For the long term, the IRS should focus on
providing customers with both a description of the reject condition and information on
how to resolve it by including a description of the reject condition with steps to correct
the error in the e-file acknowledgement file. This would provide customers with one-stop
self-assistance. The IRS has been moving to a new electronic platform to process e-filed
tax returns, referred to as the Modernized e-file Program. IRS officials noted that
expansion of the Modernized e-file Program to include individual tax returns will begin
in Fiscal Year 2009 and will be completed by Fiscal Year 2011. The e-file
acknowledgment file that will be generated from the Modernized e-file Program has the
possibility of including a description of the reject conditions and information as to how to
address them.


21
   Amount spent was calculated by multiplying 154,986 customers assisted in Calendar Year
2007 by the $19.46 cost per call.
22
   A Self-Assistance Option Would Reduce Burden and Costs Associated With Resolving
Rejected Electronic Tax Returns (Reference Number 2008-40-128, dated June 17, 2008).


                                              10
        TIGTA recommended that the IRS: 1) develop a self-assistance option on
IRS.gov that allows customers to obtain detailed explanations of e-file reject conditions,
including the steps to resolve them; and, 2) develop a business case on the feasibility of
providing in the e-file acknowledgement the information that would allow customers to
resolve their reject conditions once individual tax returns are transitioned to the
Modernized e-file Program. IRS management agreed in part with one recommendation
and disagreed with the other one. For 13 e-file error reject codes, a self-assistance option
was added to IRS.gov, which provides descriptions and suggested solutions. These
commonly issued error reject codes accounted for 78 percent of the 10.2 million error
reject codes issued in 2008 and 81 percent of the 9.9 million error reject codes issued
during 2007. The IRS also agreed to study the feasibility of adding a more
comprehensive self-assistance option to IRS.gov.

       While the IRS agreed that the e-file acknowledgement should provide information
that would allow customers to resolve their reject conditions, it does not agree that a
business case to determine the feasibility of providing this functionality is necessary.
According to the IRS, the Modernized e-file Program will provide customers with reject
codes written in plain English and clear and concise explanations of the reject conditions.

Tax Practitioners

        In Fiscal Year 2007, the IRS, including the National Taxpayer Advocate and the
Director, Office of Professional Responsibility, participated in a Return Preparer Summit,
characterized as a first step toward creating an agency-wide preparer strategy. The
Summit’s goal was to have an organized, agency-wide strategy that would assist in
making the most of IRS resources by focusing compliance and outreach efforts with tax
professionals where it is most needed. Pursuing abusive preparers is part of the IRS’s
strategy to reduce the tax gap, which researchers estimate to be $290 billion based on
2001 data.23 In February 2007 testimony before Congress, the IRS Commissioner stated
that 68 percent of the tax gap is attributed to underreported taxes for individuals. Eleven
(65 percent) of the 17 incorrect tax returns prepared for our auditors fell into this
category.

        In Calendar Year 2007, the IRS processed approximately 83 million individual
Federal income tax returns prepared by paid preparers. Anyone—regardless of training,
experience, skill, or knowledge—is allowed to prepare Federal income tax returns for
others for a fee. In February and March 2008, TIGTA auditors posed as taxpayers in a
large metropolitan area and paid to have 28 tax returns prepared at 12 commercial chain
and 16 small, independently owned tax return preparation offices. Auditors paid
commercial chains approximately $2,800, averaging $234 per tax return, and
independently owned offices approximately $2,100, averaging $132 per tax return.




23
   IRS, U.S. Department of the Treasury, Reducing the Federal Tax Gap: A Report on Improving
Voluntary Compliance (Washington, D.C.: August 2, 2007); The 2007 Taxpayer Assistance
Blueprint Phase 2 (Washington, D.C.: 2007).


                                            11
        The preparers were unlicensed and unenrolled. That is, they were not
practitioners (attorneys, certified public accountants, enrolled agents, or enrolled
actuaries). Preparers often made substantial errors when completing tax returns and
correctly prepared only 11 (39 percent) of the 28 tax returns (i.e., the tax returns showed
the correct amount of taxes owed or refunds due). However, 17 tax returns (61 percent)
were prepared incorrectly.

       •   11 (65 percent) of the 17 contained mistakes and omissions TIGTA
           considered to have been caused by human error and/or misinterpretation of the
           tax laws.
       •   6 (35 percent) of the 17 contained misstatements and omissions TIGTA
           considered to have been willful or reckless.

       If these incorrect tax returns had been filed, the net effect to the Federal
Government would have been $12,828 in understated taxes (this is the net effect–there
were instances in which tax liabilities and tax refunds were both overstated and
understated).

        The Internal Revenue Code includes requirements that all preparers be diligent in
determining taxpayer eligibility for the Earned Income Tax Credit, sign the tax return,
furnish their identification number on the tax return,24 and not improperly or recklessly
disclose tax return information. However, none of the seven preparers required to
exercise due diligence when determining whether auditors were eligible to receive the
Earned Income Tax Credit did so. In addition, two preparers did not furnish the required
identification numbers on the completed tax returns.

        The IRS does not have one list or database that collects information on preparers
such as the preparer’s name, associated identifying numbers, or whether the preparer is a
practitioner or unenrolled preparer. The IRS acknowledges that it does not know how
many paid preparers exist and cannot determine the full extent of noncompliance and
incompetence among practitioners. This hinders the IRS’s efforts to expand its outreach
and education initiatives and to identify potentially problematic preparers and all the tax
returns they prepared.

        While taxpayers are ultimately responsible for the information reported on their
tax returns, millions rely on preparers to prepare correct returns. In Fiscal Year 2007,
legislation was introduced in Congress to regulate paid preparers.25 A unique
identification number would enable the IRS to use its current databases to identify and
evaluate preparers’ compliance. Being able to identify all preparers would allow the IRS
to better pursue abusive or incompetent tax preparers in its stepped-up campaign against
tax fraud and other forms of noncompliance. TIGTA recommended that the IRS develop
and require a single identification number to control and monitor all paid preparers. The
IRS agreed to study this issue.

24
   Paid preparers must provide their Social Security Number, Practitioner Tax Identification
Number, and/or Employer Identification Number on tax returns.
25
   S. 1219, Taxpayer Protection and Assistance Act of 2007, 110th Congress, 1st Session (2007).


                                              12
        With its current processes, the IRS cannot determine how many complaints
against tax return preparers it receives, how many complaints are worked, and the total
number of multiple complaints against a specific firm or preparer.26 Guidelines provided
to taxpayers and employees about filing a tax return preparer complaint are confusing and
inconsistent. Finally, the form used to submit complaints against unenrolled preparers is
not designed to provide adequate information with which complaints can be worked.

       The IRS’s current process for handling taxpayer complaints against preparers
does not identify potential problem preparers so that the IRS can determine the extent of
noncompliance, if any, or how the noncompliance should be addressed. Complaints are
generally not controlled and tracked. Therefore, neither the volume of complaints
received from taxpayers and worked, nor their resolutions are known. Moreover,
complaints are reviewed multiple times and mailed to multiple offices before most are
ultimately destroyed.

         Several functions and offices are involved in the process of resolving taxpayer
complaints. Complaints are not centrally recorded to identify duplicates, and many
complaints are redirected to another function. Because of this, the IRS spends
unnecessary time sorting and redirecting complaints. In addition, the IRS does not
acknowledge all taxpayer complaints. An ineffective complaint system erodes public
trust as taxpayers become frustrated with the IRS’s apparent non-response.

        TIGTA recommended that the IRS: 1) clarify guidance to taxpayers on the public
IRS Web site (IRS.gov) regarding the preparer complaint process; and, 2) develop a
form, both web-based and paper, specifically for tax return preparer complaints that
routes to the correct function based on the type of tax return preparer and includes the
items necessary for the IRS to appropriately evaluate the legitimacy of the complaint.
Once a form is developed to ensure that sufficient information is captured about the
complaint, a database(s) or tracking system should be developed to efficiently control the
complaints. The IRS agreed to update guidance on IRS.gov and create a cross-functional
team to develop recommended action items to identify opportunities for improvement
that may include changes to forms and creation of an automated tracking system.

Compliance Issues

       Automated Underreporter Program

        The Automated Underreporter (AUR) Program is an important component of the
IRS’s efforts to ensure voluntary taxpayer reporting compliance. This Program uses
third-party payer information (such as that from banks and brokers) to determine whether
taxpayers have reported all of their income. Notices are sent advising taxpayers of
additional tax on any unreported income. During a recent review of the AUR Program,
TIGTA found that some taxpayers were negatively affected by inaccurate information on


26
  The Process Taxpayers Must Use to Report Complaints Against Tax Return Preparers Is
Ineffective and Causes Unnecessary Taxpayer Burden (Reference Number: 2009-40-032, dated
February 23, 2009).


                                            13
the notices.27 TIGTA believes these taxpayers agreed to inaccurate assessments as a
result of the confusion caused by the complexity of the notices.

        The Computer Paragraph (CP) 2000 notice is the primary notice that the IRS
issues to taxpayers as a result of underreporting discrepancies. During Fiscal Year 2007,
the AUR Program closed approximately 1.3 million cases after sending notices to
taxpayers for underreporting discrepancies identified on their Tax Year 2005 returns.
TIGTA selected and analyzed a statistically valid random attribute sample of AUR
Program notices sent to 138 taxpayers in Fiscal Year 2007 and found that 7 (5.1 percent)
taxpayers were sent inaccurate information. Errors on CP 2000 notices resulted in
taxpayers being both overassessed $18,968 and underassessed $1,146 in tax. Based on
the analysis, TIGTA estimated that in Fiscal Year 2007, 48,669 taxpayers received
CP 2000 notices with inaccurate information that might have resulted in overassessments
of tax. TIGTA also estimated that an additional 19,468 taxpayers might have been
erroneously underassessed tax as a result of inaccurate notices. If the number of AUR
Program notices remains constant over the next five years, TIGTA estimates that
243,345 taxpayers might be overassessed tax and 97,340 taxpayers might be
underassessed tax based on erroneous information in the CP 2000 notices.

        While the IRS attributed the problems to employee mistakes, the complexity of
the CP 2000 notices may also be a contributing factor. During Fiscal Year 2007,
customer satisfaction surveys for the AUR Program indicated that, depending on the
survey quarter, 24 percent to 32 percent of the taxpayers stated that their primary reason
for calling the IRS was to have someone explain the CP 2000 notice to them. The
complexity of the CP 2000 notice could be why some taxpayers do not question the
information provided on the notice even when that information is incorrect.

        In addition, although required by the Internal Revenue Manual, some of the AUR
Program managers did not always comply with the requirement to submit a corrective
action plan when the weekly notice quality review error rate exceeded 10 percent.
During the first 7 months of Fiscal Year 2008, there were 12 occasions when corrective
action plans should have been submitted to the Program Office because weekly notice
error rates exceeded 10 percent. However, only 5 (41.7 percent) corrective action plans
were submitted, and only 3 (25 percent) of these corrective plans were submitted within
the 2-day requirement.

        Although the IRS has established a quality review process for identifying
employee errors on notices, AUR Program management has not ensured that managers
consistently take action to address notice inaccuracies. In addition, as of September
2007, 261 (28.6 percent) of the 911 AUR Program employees had fewer than two years
experience. According to the IRS, increased oversight of the quality program has led to
more involvement in establishing corrective action plans, developing error tracking
reports, and resolving procedural issues with their employees. However, more action is
needed. The combination of inexperienced staff and managers who were not adequately

27
 Most Automated Underreporter Program Notices Are Correct; However, Additional Oversight Is
Needed (Reference Number 2008-40-180, dated September 25, 2008).


                                            14
addressing employee errors has resulted in a higher rate of inaccurate CP 2000 notices
being issued to taxpayers.

        TIGTA recommended that the IRS: 1) ensure that AUR Program management
incorporates additional information on notice review procedures and quality service
expectations into its refresher training for Program employees; 2) simplify the CP 2000
notices issued by the Program; and, 3) ensure that Program management monitors
compliance with requirements to submit and implement corrective action plans when
notice review error rates exceed 10 percent. The IRS agreed with all of the
recommendations.

        Federal Payment Levy Program

        The IRS is authorized to continually levy against certain types of Federal
Government payments issued to taxpayers and contractors with outstanding tax debts.28
The IRS uses the Federal Payment Levy Program (FPLP) to impose systemic levies on
these types of payments. However, in some cases, these systemic levies have caused
hardships for taxpayers.

       Congress has expressed concern that some Federal Government contractors,
vendors, and employees who received Federal Government payments were delinquent in
meeting their tax obligations. Accordingly, Congress amended the tax code29 and
authorized the IRS to continuously levy against specified Federal Government payments
through the FPLP. The FPLP was created to systemically levy against these payments.

       In Fiscal Year 2004, IRS collections on delinquent taxes through the FPLP totaled
$114 million. In Fiscal Year 2007, the total collections through the FPLP rose to
$345 million. The increase in collections can be directly attributed to the efforts of the
FPLP in accessing additional Federal Government payment streams that were previously
not available for levy. However, even with this growth, IRS management still could do
more to prevent hardships on low-income taxpayers.

         TIGTA identified a number of areas in the FPLP that need to be improved. Some
low-income Social Security beneficiaries are experiencing hardship due to the FPLP.
Initially, the IRS had an income threshold in place. If a taxpayer’s overall income
amount as reported on the most recently filed tax return was less than this threshold, the
taxpayer was excluded from the Program. However, starting in July 2005, the income
threshold began to be phased out. It was first reduced by one-half; six months later, it
was completely removed. Since then, the Taxpayer Advocate Service has experienced a
large increase in the number of Social Security beneficiaries claiming hardship due to the
issuance of FPLP automated levies. Although the previous income threshold criteria
were flawed in some respects, some method of screening is needed.


28
   Taxpayer Relief Act of 1997, Pub. L. No. 105-34, 111 Stat. 788 (codified as amended in
scattered sections of 5 U.S.C., 19 U.S.C., 26 U.S.C., 29 U.S.C., 31 U.S.C., 42 U.S.C., and 46
U.S.C. app.).
29
   Taxpayer Relief Act of 1997.


                                               15
         TIGTA recommended that the IRS establish specific criteria to identify and
exclude from the FPLP those Social Security beneficiaries for whom a levy would create
a hardship situation. The IRS partially agreed with the recommendation. The IRS agreed
with the principle, but does not know if the model it currently has under development to
screen low-income taxpayers for potential hardship is feasible to implement. TIGTA is
concerned about the lack of a solution in place to prevent as many hardships as possible
for low-income taxpayers. It has been seven years since the IRS first put in place a filter
to prevent hardships. There has been more than enough time to refine and test the
criteria. Delays come at the expense of low-income taxpayers who experience hardship
due to levies on their Social Security payments. The IRS has an operational
responsibility to reduce taxpayer burden and protect taxpayer rights.

       Bankruptcy

        The United States Bankruptcy Code’s automatic stay provision is designed to
protect taxpayers from collection activities while they are in bankruptcy. Nonetheless, an
estimated 495 potential taxpayer rights violations occurred between October 2005 and
December 2007 because the IRS filed liens while taxpayers were in bankruptcy.30 There
were also 27,838 taxpayers at risk of having their rights violated because a bankruptcy
freeze code was not posted to their accounts in a timely manner. The bankruptcy freeze
code designates that the account is in bankruptcy status. The code is an important control
component for protecting taxpayer rights during bankruptcy proceedings by helping the
IRS and its Centralized Insolvency Operation function identify and address potential
automatic stay violations.

        TIGTA found that controls need to be strengthened in two areas. First, the IRS
could take better advantage of reports generated from automated systems to identify and
resolve potential stay violations. TIGTA identified cases in which taxpayers’ rights were
violated because the IRS filed liens on taxpayers’ accounts while the taxpayers were in
bankruptcy. TIGTA also identified taxpayers’ accounts that were at risk of having their
rights violated because a bankruptcy freeze code was not posted to their accounts in a
timely manner.

        Second, managers need to be held more accountable for initiating bankruptcy
closing actions in a timely manner. Failure to initiate bankruptcy closing actions in a
timely manner affects the IRS’s ability to collect taxes and also can place undue hardship
and burden on taxpayers by withholding refunds. As of June 28, 2008, TIGTA identified
2,442 taxpayers’ accounts in which closing actions had not been initiated within
30 calendar days of the Bankruptcy Courts’ closing determination.

        TIGTA recommended that the IRS: 1) develop and implement guidance for the
identification and correction of potential lien stay violations when establishing
bankruptcy cases on the Automated Insolvency System; 2) improve the Centralized
Insolvency Operation function Weekly Inventory Reports to include aging information on

30
 Additional Actions Are Needed to Protect Taxpayers’ Rights and the Government’s Interest
During Bankruptcy Proceedings (Reference Number 2009-30-036, Dated February 20, 2009).


                                             16
taxpayers accounts; 3) enhance efforts to resolve freeze codes that do not post to accounts
by ensuring that managers consistently work Potentially Invalid Taxpayer Identification
Number reports; and, 4) evaluate the frequency, consistency, and effectiveness of team
manager reviews of the quality and timeliness of bankruptcy closing actions in future
operational reviews. The IRS agreed with the recommendations.

Conclusion

         Mr. Chairman and Members of the Subcommittee, thank you for the opportunity
to comment on the IRS’s efforts to assist taxpayers experiencing economic difficulties.
Although the IRS has improved its service to taxpayers in recent years, more needs to be
done. In this time of economic difficulty, the IRS must ensure that it remains sensitive to
the situation of the public it serves. The IRS must effectively implement the tax relief
provisions of the ARRA 2009 and assist taxpayers with filing their tax returns and
meeting their tax obligations. This is an enormous challenge. TIGTA will continue to
assist the IRS in meeting this challenge by providing proper oversight and audits in
helping to ensure the integrity, economy, and efficiency of our tax system.




                                            17
